           U.S. Department of
                                                         Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Notification of Audit— DOT’s                            Date:    June 29, 2004
           Information Security Program
           Project Number: 04F3005F000
                                                                             Reply To
  From:    Theodore P. Alves                                                  Attn Of:   JA-20
           Assistant Inspector General for Financial
            and Information Technology Audits

    To:    Chief Information Officer, DOT

           The Office of Inspector General is initiating the annual audit of the Department of
           Transportation’s Information Security Program as required by the Federal
           Information Security Management Act (FISMA). The audit will be conducted at
           DOT Headquarters in Washington, DC.

           The audit objectives are to (1) assess DOT’s progress in correcting weaknesses
           identified in last year’s FISMA review, and (2) provide input to DOT’s annual
           FISMA report by answering questions specified by the Office of Management and
           Budget.

           We plan to review the reasonableness of DOT’s systems inventory adjustments,
           perform a sample review of Operating Administration information systems, and
           scan network computers to evaluate DOT’s configuration management controls.

           We will contact your audit liaison to establish an entrance conference to discuss
           the audit. The Project Manager for the audit is Nathan Custer. If you have
           questions, please call Rebecca Leng, Deputy Assistant Inspector General for
           Information Technology and Computer Security, at (202) 366-1488 or Nathan
           Custer at (202) 366-5540.

                                                    #

           cc: Martin Gertel, M-1
               CIO Council Members
